AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Management of Spent Nuclear Fuel
 at the Savannah River Site




 DOE/IG-0727                                May 2006
REPORT ON MANAGEMENT OF SPENT NUCLEAR FUEL AT THE
SAVANNAH RIVER SITE


TABLE OF
CONTENTS


  Spent Nuclear Fuel Management

  Details of Finding                                1

  Recommendations                                   2

  Comments                                          3


  Appendices

   1. Objective, Scope, and Methodology             4

   2. Prior Audit Reports                           5

   3. Management Comments                           6
SPENT NUCLEAR FUEL MANGEMENT

H-Canyon       The Department of Energy's (Department) spent nuclear fuel
Operations     program at the Savannah River Site (Site) will likely require
Extended       H-Canyon to be maintained at least two years beyond defined
               operational needs. The Department committed to maintain
               H-Canyon operational readiness to provide a disposal path for
               degraded spent nuclear fuel, which may pose an immediate safety
               and health risk, until a treatment or packaging capability is
               available. However, as of January 2006, the Department had not
               approved a specific technology to prepare the Site's spent nuclear
               fuel for disposal.

               Although officials at the Site proposed starting conceptual design
               work for a spent nuclear fuel treatment and packaging capability in
               Fiscal Year (FY) 2007, the Department did not approve the
               technology or funding for conceptual design work in FY 2007.
               According to Site officials, FY 2007 funding for the project was
               prerequisite to having operational capability to treat and package
               the spent nuclear fuel by FY 2012. H-Canyon will have completed
               all of its defined operations by the end of FY 2010, and could stand
               idle until at least 2012, or later, until a new treatment or packaging
               capability is available. No other materials have been identified for
               processing beyond FY 2010.

Disposition    The Department will have to maintain H-Canyon capabilities
Strategy       longer than needed because, in 2003, it abandoned work on the
               preferred alternative technology selected in the 2000 Record of
               Decision and delayed approving an alternative technology for the
               Site's spent nuclear fuel until it adopted a complex-wide strategy
               for also disposing of spent nuclear fuel stored at the Hanford Site
               and Idaho National Laboratory. Although the Department started
               work on a strategy in October 2002, as of January 2006, it had not
               decided on a complex-wide approach and had not established a
               deadline for completing work on the strategy.

               In October 2002, the Assistant Secretary for Environmental
               Management (EM) chartered a spent fuel Corporate Project Team
               (Spent Fuel Project Team) to reevaluate storage, packaging,
               transportation and disposal activities across the complex and to
               recommend a corporate strategy by September 2003. EM tasked
               the Spent Fuel Project Team to improve spent fuel management
               by:

                   •   Clearly identifying EM's spent fuel mission;

                   •   Defining the current and projected spent fuel inventory
                       within EM's responsibilities;


Page 1                                                          Details of Finding
                      •   Integrating EM's spent fuel activities with the Office of
                          Civilian Radioactive Waste Management (OCRWM); and,

                      •   Identifying opportunities for the acceleration of spent fuel
                          disposition.

                  In May 2005, the reevaluation had not been completed and EM
                  revised the methodology for developing the spent fuel corporate
                  strategy. The Spent Fuel Project Team was effectively disbanded
                  and the responsibility for recommending direction for the
                  complex-wide spent fuel program was assigned to line
                  management under EM's Office of Logistics and Waste
                  Disposition Enhancements. EM plans to meet with field personnel
                  from the various sites managing spent fuel to identify issues
                  needing resolution before developing a corporate strategy.

                  EM officials provided several explanations for the delay in
                  completing the spent nuclear fuel complex-wide strategy. First,
                  according to EM personnel, there were changes in direction from
                  EM management. Specifically, personnel changes in EM top
                  management led to a refocusing of the program's emphasis from
                  accelerating closure to reducing cost and risk. Furthermore, EM
                  officials believed that there was sufficient time to develop a
                  corporate strategy to dispose of spent fuel since there were delays
                  in opening the Yucca Mountain High Level Waste Repository.
                  However, this approach does not give adequate consideration of
                  the cost impacts of keeping H-Canyon open. Although
                  management indicated that EM intends to look for other missions
                  for H-Canyon, to date, no other missions have been identified.

Costs             The Department is likely to incur at least $300 million to keep
                  H-Canyon available, but idle, until a technology is approved and
                  made operational at the Savannah River Site. Specifically, the cost
                  to keep H-Canyon operational without processing materials will be
                  about $150 million per year for at least two years.


RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:

                       1. Accelerate work to complete a complex-wide strategy for
                          the disposition of spent fuel;

                       2. Formally select a preferred technology for preparing
                          spent fuel at the Site for disposition consistent with the
                          complex-wide strategy; and,


Page 2                                                           Recommendations
                  3. Expedite the implementation of this technology to
                     minimize the impact of extending H-Canyon operations.


MANAGEMENT   The Principal Deputy Assistant Secretary for Environmental
REACTION     Management concurred with the report's finding and
             recommendations. Specifically, management stated that the
             Department is currently examining alternative missions for
             H-Canyon that may keep it operating well beyond FY 2010.
             Management concluded that if such missions are quantified and
             approved, then the Department would not incur the additional costs
             to keep H-Canyon available. Management also stated that it is
             working closely with OCRWM to complete a complex-wide
             strategy for the disposition of EM's spent nuclear fuel at Yucca
             Mountain. Further, a Record of Decision will be prepared to select
             the preferred approach once the plans for any H-Canyon missions
             are further developed. Finally, the implementation of the decision
             will be consistent with the plans for the H-Canyon operations, the
             OCRWM schedule for Yucca Mountain, and the priorities of the
             Department.

             Management's verbatim comments can be found in Appendix 3.


AUDITOR      While management agreed with the recommendations and
COMMENTS     provided corrective actions, it did not delineate when these
             corrective actions would be achieved. Management's response to
             our recommendations emphasize the importance of coordination
             between EM and OCRWM and the complexities that must be
             evaluated and reduced to ultimately dispose of spent nuclear fuel.
             While we agree that the identification of additional H-Canyon
             missions beyond 2010 could potentially avoid the increased costs
             identified in the report, it remains unclear how management plans
             to address such complex issues as coordinating spent nuclear fuel
             disposition activities with the opening of Yucca Mountain or when
             management's planned actions will be completed. The report
             points out the significant monetary impact that will result if these
             unknowns are not addressed in a timely manner.




Page 3                                                              Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department's spent nuclear fuel program at the Savannah River
              Site will extend the time required to maintain H-Canyon
              operational readiness beyond defined needs.


SCOPE         The audit was performed between October 2004 and January 2006,
              at the Savannah River Site in Aiken, South Carolina, and the
              Office of Environmental Management, in Germantown, Maryland.
              The scope of the audit included a review of the treatment,
              packaging and disposal plans for spent fuel stored at the Site. In
              addition, we reviewed long-term spent fuel management issues
              such as storage capacity and shipping schedules.


METHODOLOGY   To accomplish the audit objective, we:
                 •   Researched applicable Federal and Departmental
                     regulations and guidance;

                 •   Reviewed prior Office of Inspector General and
                     Government Accountability Office reports related to the
                     audit objective;

                 •   Reviewed Records of Decision to determine the
                     Department's documented strategy for the disposal of spent
                     fuel; and,

                 •   Interviewed Savannah River and EM Headquarters
                     management personnel and reviewed implementation plans
                     to determine anticipated changes to the formal strategy for
                     disposing of spent fuel at the Site.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed the Department's compliance with the Government
              Performance and Results Act of 1993. The Department has
              established performance measures related to the storage of spent
              fuel at the Site, but not for final disposition. Because our review
              was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit.
              In performing this audit, we did not rely on computer-based data to
              accomplish the audit objective. Therefore, it was not necessary to
              assess its reliability.

              Management waived the exit conference.


Page 4                                    Objective, Scope, and Methodology
Appendix 2

                                  PRIOR AUDIT REPORTS


Office of Inspector General

   •   Recovery of Highly Enriched Uranium Provided to Foreign Countries (DOE/IG-0638,
       February 2004). The Office of Inspector General (OIG) found that the Department's
       Foreign Research Reactor Spent Nuclear Fuel Acceptance Program (Acceptance
       Program) was likely to recover only about half of the spent fuel containing highly-
       enriched uranium (HEU) covered by the program and there was no effort to recover
       additional spent fuel with HEU dispersed to foreign countries not included in the
       program. The report noted that the program was the responsibility of the Office of
       Environmental Management, even though that office's primary mission was
       environmental cleanup rather than non-proliferation. To ensure that, to the maximum
       extent practical, spent fuel containing HEU would be recovered and dispositioned, the
       OIG recommended that the Department determine: whether aspects of spent fuel
       recovery could be more effectively managed by the National Nuclear Security
       Administration; whether the Acceptance Program should be expanded to include all
       outstanding spent fuel with HEU produced in the U.S. and dispersed to foreign countries;
       whether improvements to the program could be made to encourage greater foreign
       participation; and, the responsibility for the ultimate disposal of spent fuel containing
       HEU.

Government Accountability Office

   •   Nuclear Waste: DOE's Hanford Spent Nuclear Fuel Storage Project--Cost, Schedule, and
       Management Issues (RCED-99-267, September 1999). The Government Accountability
       Office found that uncertainty remained over when the Department's project to improve
       the storage of spent nuclear fuel at the Hanford Site would be finished and how much it
       would cost. Contractors had addressed the three main problems that existed earlier (an
       unrealistic schedule, poor control over the project's baseline, and unresolved technical
       issues) but still had several matters to resolve before being able to provide assurance that
       cost and schedule estimates could be met. The report recommended that the Secretary of
       Energy strengthen leadership and oversight to better ensure that the project was
       completed as efficiently and effectively as possible.




Page 5                                                                      Prior Audit Reports
Appendix 3




Page 6       Management Comments
Appendix 3 (continued)




Page 7                   Management Comments
                                                                    IG Report No. DOE/IG-0727

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
